                            Office of the Inspector General

January 19, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


The Social Security Administration is Pursuing Matching Agreements with New York
and Other States Using Biometric Technologies (A-08-98-41007)


Attached is a copy of the subject final report. Our objective was to determine whether
the results of biometric technologies used by certain States in the administration of
welfare programs could benefit the Social Security Administration (SSA). We believe
that matching of such data with SSA’s information systems would provide a strong
complement to SSA’s existing fraud prevention and detection techniques.

You may wish to comment on any further actions taken or contemplated on our
recommendations. If you choose to comment, please provide your comments within
60 days of the date of this memorandum. If you wish to discuss the final report, please
call me or have your staff contact Steven L. Schaeffer, Acting Assistant Inspector
General for Audit, at (410) 965-9700.




                                            James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



       THE SOCIAL SECURITY
    ADMINISTRATION IS PURSUING
   MATCHING AGREEMENTS WITH
   NEW YORK AND OTHER STATES
  USING BIOMETRIC TECHNOLOGIES

    January 2000   A-08-98-41007




AUDIT REPORT

                  E X E C U T I V E S U M M A R Y


OBJECTIVE

The objective of our review was to determine whether the results of biometric
technologies used by certain States in the administration of welfare programs could
benefit the Social Security Administration (SSA).

BACKGROUND

To combat fraud and identify ineligible recipients for social service programs, several
States have employed biometrics— the science of measuring unique physical
characteristics, such as fingerprints, for purposes of identification. Biometrics offers a
potentially foolproof means of verifying a person’s identity and, if used during the
enrollment stage, can detect and prevent attempts by applicants to obtain benefits
improperly, such as through the use of identity fraud— the illegal use of personal
identifying information to commit financial fraud.

As of December 1998, 11 States were using or had plans to adopt biometric
technologies in their social service programs. The specific status of each State project
is detailed in Appendix A. In general, States that have implemented biometric
programs have realized significant benefits. For example, in the first 2 years of
operation, the following States identified significant savings that directly resulted from
their use of biometric technologies.

�	 California estimated that finger-imaging of welfare clients in just seven counties has
   saved over $86 million.

�	 Connecticut estimated savings of $15 million and identified 32 cases of attempted
   fraud through dual enrollment.

�	 New York estimated savings of $396 million and initiated 379 fraud investigations
   for dual enrollees.

SCOPE AND METHODOLOGY

To achieve our objective, we interviewed officials from the 11 State agencies using
biometric technologies in the administration of welfare programs and identified matches
currently performed by SSA with State agencies. To determine the potential benefit of




                                             i
SSA matching with State data, we reviewed 500 sample cases (i.e. individuals) from
12,615 Aid to Families with Dependent Children (AFDC) cases closed by New York for
failure to cooperate with the State’s finger-imaging requirement over the period
October 1995 to July 1997. Since SSA did not have a formal matching agreement with
the State of New York at the time of our review, the scope of our review of sample
cases was limited.

We performed the audit work at SSA Headquarters in Baltimore, Maryland; the
Southeastern Program Service Center in Birmingham, Alabama; and the New York
Department of Social Services in Albany, New York. We conducted our audit field work
between April and August 1998.

RESULTS OF REVIEW

The results of our review of 500 cases that the State of New York terminated for
nonparticipation in its finger-imaging program indicated that SSA could benefit from
information obtained through New York and other States using biometric technologies.
For example, of the 500 cases reviewed, we identified 64 individuals (13 percent) to
whom SSA had paid title II and/or title XVI benefits. Because SSA did not have a
matching agreement in place with New York, we were prohibited from pursuing
individual cases. Therefore, we could not draw a conclusion on the propriety of SSA
payments made to these 64 individuals. However, their failure to appear for finger-
imaging implies that fraud may have occurred, and those cases should be subject to
further review.

Based on the results of our review, we estimate that, as of January 1998, about
$45 million in SSA benefits had been paid to approximately 1,615 individuals within the
population of New York State’s 12,615 terminated AFDC cases. We also estimate that
an additional $16.3 million in SSA benefits will be paid to individuals within this
population between February 1998 and February 2001. Through a matching
agreement, SSA could use the results of New York State’s biometrics program to
identify individuals who are inappropriately receiving benefits; and thereby, reduce
and/or recover any improper benefit payments. Such efforts in New York, as well as in
other States, would complement and strengthen SSA’s existing fraud detection and
prevention initiatives and help SSA meet its performance goal of making its program
management one of the best in business, with zero tolerance for fraud and abuse.

CONCLUSIONS AND RECOMMENDATIONS

By using biometric technology to verify applicant identity, States have reduced
improper payments and provided valuable insight into fraudulent uses of Social
Security numbers (SSN). In turn, SSA may be able to reduce SSN and benefit fraud in
its programs. As States adopt and benefit from the use of biometric technology in their
welfare programs, SSA needs to expand its fraud prevention and detection initiatives to
incorporate these new techniques.


                                           ii
Therefore, we recommend that SSA:

(1) Pursue a matching agreement with New York, so that the Agency can use results of
    the State’s biometric technologies to reduce and/or recover any improper benefit
    payments.

(2) Initiate pilot reviews to assess the cost-efficiency of matching data with other States
    that have employed biometrics in their social service programs.

AGENCY COMMENTS

SSA agreed with our recommendations and plans to pursue a pilot matching agreement
with the State of New York. SSA also stated that if the New York pilot proved
beneficial, the Agency will consider expansion to other States on a case-by-case basis.

In its response, SSA did express concerns about certain assumptions we made in the
report. Specifically, the Agency stated that additional evaluation was needed to show
that matching agreements would result in the reduction of fraud and/or the recovery of
improper payments in SSA programs. SSA also expressed concern regarding privacy
issues involved in pursuing matching agreements with States using biometric
technologies. The Agency asserted that the Privacy Act and its modifications covering
computer matching did not anticipate using biometrics for identification purposes.
Therefore, SSA stated that it must exercise caution to ensure that biometrical
identification is accurate, voluntary and totally noncoercive.

SSA was also concerned that by only matching with States that employ biometrics, SSA
would be subjecting a class of applicants to identification requirements above those
generally required. Finally, SSA stated that it must also remain cautious about relying
on “matches”with State records that contain identifying information not consistent with
SSA’s data. SSA stated that doing so without the appropriate checks and balances
could lead to inappropriate questioning or even suspensions for individuals whose SSA
benefit eligibility is correct. The full text of SSA’s comments is included as Appendix D.

OIG RESPONSE

We are encouraged by SSA’s decision to pursue a pilot matching agreement with the
State of New York. Additionally, we agree with SSA’s proposed plan to expand the
pilot to other States only if the matching agreement with New York proves beneficial.

We acknowledge SSA’s concerns regarding the assumptions made in our report. We
also recognize that biometrics and matching agreements represent a new frontier for
the Agency. As such, we understand SSA’s desire to proceed in this arena with
thoughtful consideration. We believe that as SSA accumulates data and gains
experience during its pilot review, the Agency should be in a good position to assess
the actual costs versus benefits of matching as well as related privacy issues.


                                             iii
                         T A B L E O F C O N T E N T S


                                                                                                                   Page

EXECUTIVE SUMMARY ................................ ................................ ......................... i


INTRODUCTION ................................ ................................ ................................ .... 1


RESULTS OF REVIEW ................................ ................................ .......................... 7


    SSA COULD BENEFIT FROM PURSUING MATCHING

    AGREEMENTS WITH NEW YORK AND OTHER STATES USING

    BIOMETRIC TECHNOLOGIES ................................ ................................ ......... 7


    IDENTITY THEFT AND FALSE IDENTITY ARE GROWING

    PROBLEMS ................................ ................................ ................................ ...... 7


    REVIEW OF NEW YORK CASES ................................ ................................ .... 9


CONCLUSIONS AND RECOMMENDATIONS ................................ .................... 12



APPENDIX A – Use of Biometrics in State Welfare Programs

APPENDIX B – SSA Covered Matches with States

APPENDIX C – Sample Appraisals

APPENDIX D – Agency Comments

APPENDIX E – Major Report Contributors

APPENDIX F – SSA Organizational Chart

                               I N T R O D U C T I O N


OBJECTIVE

The objective of our review was to determine whether the results of biometric
technologies used by certain States in the administration of welfare programs could
benefit the Social Security Administration (SSA).

BACKGROUND

Over the past several years, Congress has taken steps to address concerns over the
availability of consumer identifying information and increased occurrences of identity
fraud. In 1996, Congress directed the Board of Governors of the Federal Reserve
System to conduct a study on the availability of consumer identifying information and its
possible use to commit financial fraud. In 1997 and early 1998, Congress asked the
General Accounting Office (GAO) to review various issues related to identity fraud.
Although neither of these sources found comprehensive statistics regarding the
prevalence of identity fraud, they do cite figures for individual financial and Federal
organizations which indicate that occurrences of this crime have increased in recent
      1
years.

In response to the nationwide concerns about identity fraud, Congress enacted the
Identity Theft and Assumption Deterrence Act of 1998, Public Law 105-318. This law
established identity theft as a Federal crime, punishable by substantial fines and/or
imprisonment. To combat this type of fraud and identify individuals inappropriately
receiving benefits for social service programs, 11 States are using or have plans to use
biometrics— the science of measuring unique physical characteristics, such as
fingerprints, for purposes of identification.2




1
  These figures are cited in the following reports: U.S. General Accounting Office’s report, Identity Fraud:
Information on the Prevalence, Cost, and Internet Impact is Limited, issued in May 1998; and the Board
of Governors of the Federal Reserve System’s Report to the Congress Concerning the Availability of
Consumer Identifying Information and Financial Fraud, issued in March 1997.
2
  Examples of human traits used for biometric recognition include fingerprints, speech, face, retina, iris,
handwritten signature, hand geometry and wrist veins. Biometric recognition can be used to identify a
person from a population by searching a data base for a match or to authenticate a person’s claimed
identity from his/her previously enrolled pattern.


                                                     1

State Use of Biometrics to Combat Fraud

In 1998, GAO estimated that annual losses resulting from fraud in entitlement programs
totaled approximately $10 billion. Concerned over the losses, several States have
turned to the field of biometrics to administer welfare programs.

Biometric technologies are not new. In fact, automated fingerprint identification system
(AFIS) technology has a 25-year history of success in law enforcement. As computer
technology has become more sophisticated and less expensive, biometric
applications— once beyond the financial reach of agencies outside the law enforcement
community— have become more attainable. In an era when identifying legitimate
individuals is vital to assuring personal security and controlling against fraud and
criminal activities, the use of biometric identifiers is expected to expand significantly in
business and government programs. For Governments and corporations attempting to
crack down on fraud, biometrics offers a potentially foolproof means of verifying a
person’s identity.

In adopting biometric technologies, States hope to deter and/or detect individuals
attempting to use multiple identities to apply for and receive cash, food stamps and/or
medical assistance coverage. Most of the States who have begun using biometric
techniques in administering social service programs have chosen to use finger-imaging
to document and verify the identity of benefit applicants. The general policy of State
agencies has been to deny or discontinue State assistance payments to individuals
who refuse to be finger-imaged. As such, most States using biometric technologies
have significantly reduced their welfare rolls and realized substantial cost savings.

As illustrated in Figure 1, as of the end of 1998, eight States (California, New York,
New Jersey, Connecticut, Massachusetts, Illinois, Texas and Arizona) had operational
biometric projects, and three States (Florida, Pennsylvania and North Carolina) had
pending biometric programs. Appendix A provides information on the status of these
projects for the 11 States.




                                             2

          Figure 1: States with Biometric Programs




           Source: The Connecticut Biometric Web Page

                 States with Active Biometric Programs

                 States with Pending Biometric Programs



California, New York and Connecticut are leading the way in the use of biometrics to
prevent and/or detect welfare fraud.

�	 In 1994, California became the first State to employ biometrics. California estimates
   that finger-imaging welfare clients in 7 counties saved the State over $86 million in
   the first 2 years of operation. California has now proposed a unified system for
   225 county offices with an enrollment of 6 million expected by March 2000.

�	 In 1995, New York started its statewide AFIS program. As of December 1998,
   New York’s Department of Social Services (DSS) had enrolled about 1 million
   individuals in its finger-imaging data base. DSS estimated savings of $396 million
   over the first 2 years of the program. These savings resulted from 1,437 case
   denials for refusal at intake; 45,030 case closings; and 379 fraud investigations for
   dual enrollees.




                                           3

�	 In 1996, Connecticut’s DSS commenced statewide finger-imaging for its AFDC3 and
   general assistance programs. In a March 1998 report to the General Assembly,
   DSS stated that, through digital imaging, it had identified 32 cases of attempted dual
   enrollment— 12 resulting in prosecution, closure or other administrative action and
   20 under further investigation. Including case closings and attempted dual
   enrollments, DSS estimated savings of $9 million and $6 million in the first 2 years
   of operation, respectively.

Other States anticipate similar savings in their welfare programs. Arizona estimated its
program could save the State $30 million over the next 5 years. Pennsylvania expects
to realize savings of $290 million in either budgetary or cost avoidance. Additionally,
some States, in efforts to identify individuals who are simultaneously collecting benefits
in two or more States, are beginning interstate matches of biometric information. For
example, New Jersey has performed the cross match with Connecticut and expects to
perform a cross match with New York as well.

Computer Matching

Government agencies, including SSA, have turned to computer matching in recent
years in an attempt to reduce fraud, waste and abuse in Federal benefit programs.
Computer matching has three main goals: (1) to determine eligibility for Federal
benefits; (2) to determine compliance with Federal benefit program requirements; and
(3) to effect recovery of improper payment or delinquent debts from current or former
beneficiaries of Federal benefits.

To protect individual privacy and provide improved analysis on the cost-effectiveness of
matching programs, Congress passed theComputer Matching and Privacy Protection
Act of 1988 (CMPPA). CMPPA requires Federal agencies to complete matching
agreements whenever an automated Federal system of records is to be used in a
computer match with any other automated record for one of the three above stated
purposes. Matching agreements must specify the purpose and legal authority for the
matching program, describe the nature of the match and expected results, and describe
how the records will be protected.

In administering its benefit programs, SSA exchanges information with a number of
Federal and State agencies. SSA regularly obtains information from external parties to
verify initial and ongoing factors affecting program entitlement, assure the integrity of
the trust funds and provide service to the public. SSA also provides information to
external parties to assist Federal and State agencies in carrying out legitimate
Government purposes, such as administering benefit programs. The terms of SSA’s
exchanges are set forth in written agreements. Certain exchanges, where


3
  The Personal Responsibility and Work Opportunity Act of 1996, Public Law 104-193, replacedthe Aid
to Families with Dependent Children program with State programs funded under Part A of title IV of the
Social Security Act.


                                                  4

information can adversely affect the beneficiary are subject to CMPPA and SSA must
take additional steps to ensure the privacy, integrity and verification of data exchanged.
A list of SSA’s matches with State agencies is provided as Appendix B.

SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed laws and regulations regarding limitations in
matching computer data among Government organizations. We then obtained
assistance from the Office of the Counsel to the Inspector General concerning our legal
position in pursuing information received from State agencies and the need for a
CMPPA agreement. The request to process a formal matching agreement with the
State of New York has been forwarded to SSA. In the absence of an agreement,
CMPPA prevented us from pursuing any action that could have an adverse effect on
individual beneficiaries.

Nevertheless, to determine the possible benefits that State matching agreements might
provide SSA, we obtained a computerized file containing 12,615 AFDC cases4 closed
by New York’s DSS because the individual failed to cooperate with the State’s
finger-imaging requirement between October 1995 and July 1997. We then randomly
selected a sample of 500 cases from the 12,615 cases and compared information
obtained by the State with the following SSA systems of records:

�	 Numident and Alphident master files containing identifying information for Social
   Security number (SSN) holders;

�	 Master Beneficiary Record containing all title II, Old Age, Survivors and Disability
   Insurance accounts;

�	 Supplemental Security Record containing all title XVI, Supplemental Security
   Income (SSI) accounts; and

� Master Earnings File containing all earnings posted to individual SSN accounts.

We then obtained supplemental information for sample cases for which we identified
potential problems and/or an impact on SSA programs. For example, we obtained
information from New York City and State welfare data bases, earnings records and
prison records. Additionally, we analyzed poverty and maximum income levels in the
State.

During our audit, we also interviewed: (1) other State agencies using biometric
technologies in the administration of welfare programs and (2) State investigators
regarding the prevalence and types of identity theft. Further, we identified matches


4
    For purposes of this review, each case represented one individual.


                                                     5

performed by SSA with Federal and State agencies under CMPPA. Finally, we
reviewed the results of other audits, investigations and studies dealing with identity
fraud.

We performed our audit work at SSA Headquarters in Baltimore, Maryland; the
Southeastern Program Service Center in Birmingham, Alabama; and the New York
Department of Social Services in Albany, New York. We conducted our field work
between April and August 1998. We conducted this audit in accordance with generally
accepted government auditing standards.




                                            6

                       R E S U L T S O F R E V I E W


SSA COULD BENEFIT FROM PURSUING MATCHING AGREEMENTS
WITH NEW YORK AND OTHER STATES USING BIOMETRIC
TECHNOLOGIES

The results of our review of 500 cases that the State of New York terminated for
nonparticipation in its finger-imaging program indicated that SSA could benefit from
information obtained from States using biometric technologies. Of the 500 cases
reviewed, we identified 64 individuals (13 percent) to whom SSA had paid title II and/or
title XVI benefits. Because SSA did not have a matching agreement in place with
New York, we were prohibited from pursuing individual cases. Therefore, we could not
draw a conclusion on the propriety of SSA payments made to these 64 individuals.
However, their failure to appear for finger-imaging in New York connotes possible
fraudulent circumstances that should be further reviewed.

Based on the results of our review, we estimate that through January 1998 about
$45 million in SSA benefits were paid to approximately 1,615 individuals within the
population of New York State’s 12,615 terminated AFDC cases.5 We also estimate that
an additional $16.3 million in SSA benefits will be paid to individuals within this
population between February 1998 and February 2001.6 We recognize that these
payments may be legitimate and appropriate. However, through a matching
agreement, SSA could review the results of New York State’s biometrics program
(e.g., the individuals who failed to appear for finger-imaging and the fraud cases that
were identified) and determine whether any of the Agency’s benefit payments are
improper. Such efforts in New York, as well as in other States, would complement and
strengthen SSA’s existing fraud detection and prevention initiatives and help SSA meet
its performance goal of making its program management the best in the business, with
zero tolerance for fraud and abuse.

IDENTITY THEFT AND FALSE IDENTITY ARE GROWING PROBLEMS

In a March 1997 report to Congress, the Board of Governors of the Federal Reserve
System (Board) concluded that fraud related to identity theft and false identity appears
to be a growing risk for consumers and organizations. In its report, the Board opined
that the relative ease with which third parties access personal information about
5
  Specifically, we estimate that $13.5 million in title II benefits and $31.8 million in title XVI benefits had
been distributed through January 1998. See Appendix C for our Sample Appraisals.
6
 Between February 1998 and February 2001, we estimate that $4.5 million in title II benefits and
$11.9 million in title XVI benefits will be paid. See Appendix C for our Sample Appraisals.


                                                       7

individuals, including SSNs, may expand that risk. One of the most common
information items used to commit identity theft is the SSN. Once secured, SSNs can be
used as a gateway to other items of identifying information, such as birth certificates,
drivers’licenses, bank accounts and credit cards. In turn, these identification items are
often used to commit identity theft and financial fraud. Among the many victims of
identity theft are Federal and State benefit programs.

New York State’s justification for adopting anti-fraud identification systems can be
inferred by a case, reported in the New York Times in 1994, that illustrates a fraud
situation prior to the implementation of its biometric system.

      A New York woman collected welfare benefits concurrently under
      8 names, increasing her income with claims for 46 nonexistent children.
      Over a 7-year period, she used 15 different identification cards, each with
      her real photograph on the front— each entitling her to public assistance.
      This individual allowed some accounts to lapse while she opened others,
      claiming a total of 73 fictitious children, including 11 sets of twins.
      Between 1987 and 1993, she received $450,000. While just one case,
      the nationwide ramifications of opportunistic fraud in benefit delivery
      systems is clear.

Since the implementation of its finger-imaging system, New York has initiated hundreds
of fraud investigations resulting from the State’s ability to detect individuals attempting
to obtain welfare benefits under multiple identities. One such example follows.

      In 1996, the State finger-imaging system identified a Public Assistance client’s
      fingerprint as matching the print of another male recipient. SSA’s Office of the
      Inspector General and the U.S. Postal Inspection Service conducted an
      investigation based on New York’s findings and found that SSA had made SSI
      benefit payments to the individual in a third name. Further, Social Security
      Disability (SSD) benefits had been made in the name of a female recipient and
      two sets of minor twins, born less than 9 months apart. Local arrest records
      matched the male subject’s prints to eight different identities. SSI/SSD
      records for August 1997, indicated all the identities had changed mailing
      addresses to a residence in Georgia. An arrest warrant in September 1997,
      charged the man with theft of Government funds, $46,331 in SSI benefits and
      $10,431 in food stamps, all alleged fraudulent benefits. Arrested in
      October 1997, while attempting to pick up five SSD checks for the female
      recipient and nonexistent minors, the man had an uncashed SSI check in the
      name of the first male recipient in his possession.



REVIEW OF NEW YORK CASES



                                            8

Our analysis of 500 cases terminated by the State of NewYork disclosed information
that SSA could use to identify potential fraudulent claims in its entitlement programs.
For example, within the 500 cases, we identified suspect circumstances indicating that
more than one person was attempting to use the same SSN to obtain benefits.
Although we were unable to pursue individual cases because we did not have a
computer matching agreement in place, we agree with New York State’s conclusion
that the individuals’failure to appear for finger-imaging implies that fraud may have
occurred and those cases should be subject to further review. Additionally, we believe
that the potential monetary impact on SSA trust funds provides further incentive for the
Agency to obtain and investigate this type of information from participating States.

Of the 500 terminated New York State welfare cases selected for review,
488 (98 percent) provided the State with an SSN and name that agreed with SSA’s
system of record. Of the 488 matching cases, we found that SSA had made title II
and/or title XVI payments to 64 individuals (13 percent). At the time of our field work,
SSA was currently paying 35 (55 percent) of the 64 individuals and had previously
terminated payments for the remaining 29 (45 percent) individuals. Specifically, as of
January 1998, SSA had paid $1.2 million in title XVI benefits to 35individuals and
$535,145 in title II benefits to 34 individuals.7

Based on the SSA benefits paid to these 64 individuals, we estimate that SSA
disbursed about $45 million in benefits to approximately 1,615 individuals within the
population of terminated New York State AFDC applicants. We also estimate that SSA
will disburse an additional $16.3 million in benefits to individuals within this population
between February 1998 and February 2001.8 The total $61 million in benefit payments
is comprised of $17 million in title II benefits and $44 million in title XVI benefits.
Detailed information regarding our projection calculations is provided in Appendix C.

The remaining 12 individuals (2 percent) provided New York with an SSN or name that
did not match SSA’s records. We searched for other accounts using the SSN and/or
name provided by New York. As a result, we identified five SSA accounts, three for
which SSA had paid title II benefits, but terminated such benefits prior to the time of our
field work. We have not projected the amount of SSA benefits paid to similar
individuals within the population of terminated New York State AFDC applicants.


Identifying Information Not Always Consistent




7
    Five of the individuals received both title II and title XVI payments.
8
  Projections are based on benefits paid for the 64 cases involving title II and/or title XVI. For cases in
current pay status, our cut-off date for computation purposes was January 1998. We then extended
payments at the same level for an additional 36 months. For cases where benefits were terminated, we
used actual payments.


                                                        9

New York and SSA’s records did not always have consistent identifying information
such as dates of birth and mailing addresses. Although there could be rational
explanations for some of these inconsistencies, we are concerned that some of these
discrepancies may indicate that more than one person is attempting to use the same
SSN and name to obtain benefits.

Of the 64 individuals who receive or have received SSA benefits, the dates of birth in
New York’s file and SSA’s Numident Master File differed in 6 instances. Four of the
cases had discrepancies of 1 month or less. The remaining 2 cases had discrepancies
of 3 months and 31 months, respectively. Additionally, the mailing addresses in
New York’s file and SSA’s master program did not agree in six cases, one of which also
included a date of birth discrepancy. For example, one individual claimed a Florida
mailing address for SSA’s records and a New York address on his or her State benefit
application.

Possible Use of Another Person’s SSN

Within our sample of terminated AFDC cases (those individuals failing to comply with
mandatory finger-imaging), we also identified instances in which applicants provided
the SSNs of other people.

�	 In five cases, we found that individuals used the SSN of a current SSA beneficiary
   or SSI recipient. In one of these cases, anindividual used the SSN of a beneficiary
   currently receiving title II benefits and claimed the same mailing address as the SSA
   beneficiary. This discrepancy could indicate that a friend, relative or even the
   beneficiary himself is attempting to establish another identity to obtain benefits.

�	 In one case, SSA discontinued SSI payments because the beneficiary died. Yet,
   using the SSN, an individual applied for New York State welfare benefits and was
   terminated upon failure to appear for finger-imaging. The termination occurred
   8 months after the purported date of death. We also noted that the individual’s sex
   according to SSA records was “male,”while in New York’s records the individual
   was “female.”

�	 In one case, an individual applying for AFDC in New York provided her deceased
   mother’s SSN, date of birth and last name. SSA’s records showed annual earnings
   of approximately $15,000 in 1995 and 1996 for this individual. Implementation
   revealed that the applicant may have been attempting to conceal these wages and
   obtain AFDC benefits by using her mother’s “identity.” In March 1997, the individual
   reapplied for welfare using her correct SSN and date of birth.

�	 An individual applying for AFDC in New York provided another person’s SSN. The
   individual in question had received title II benefits as a child under his own SSN.
   The individual had significant earnings of about $30,000 in 1995 and $29,000 in
   1996, which he could have been trying to conceal.


                                          10

�	 In a similar case, an individual provided another person’s SSN when applying for
   AFDC in New York. This individual also received title II child benefits under his own
   SSN until reaching the age of 18. SSA’s records showed that the individual had
   earnings of $24,000 in 1997, which he could have been trying to conceal.

�	 A father applied for AFDC in New York and provided his daughter’s SSN. His
   daughter, who had previously applied for and been denied SSA benefits, complied
   with New York’s finger-imaging requirement and received AFDC payments.

�	 In one case, a child received title II auxiliary benefits until SSA established that the
   applicant did not have the necessary legal relationship to the wage earner. SSA
   has been unable to recover a $6,000 overpayment to the child and his mother
   because they cannot be located. This applicant subsequently applied for AFDC in
   New York. Although the individual initially failed to appear for finger-imaging, he did
   eventually comply with the finger-imaging requirements. Nevertheless, we identified
   additional discrepancies in this individual’s information. Specifically, the applicant’s
   date of birth in the original AFDC application agreed with SSA’s records. However,
   when the applicant subsequently agreed to be finger-imaged, his birth date was
   found to differ by 11 years from the earlier date given.




                                            11

 CONCLUSIONS AND RECOMMENDATIONS


States that use biometric technology to verify applicant identity deter fraudulent
applications. By doing so, the States reduce the number of improper payments and
provide valuable insight into fraudulent uses of SSNs. In turn, SSA too may be able to
reduce SSN and benefit fraud in SSA programs. As States adopt and benefit from the
use of biometric technology to combat identity theft in their welfare programs, SSA
needs to expand its fraud prevention and detection initiatives to incorporate this new
technology.

Therefore, we recommend that SSA:

(1) Pursue a matching agreement with New York so that the Agency can use results of
    the State’s biometric technologies to reduce and/or recover any improper benefit
    payments.

(2) Initiate pilot reviews to assess the cost-efficiency of matching data with other States
    that have employed biometrics in their social service programs.

AGENCY COMMENTS

SSA agreed with our recommendations and plans to pursue a pilot matching agreement
with the State of New York. SSA also stated that if the New York pilot proved
beneficial, the Agency will consider expansion to other States on a case-by-case basis.

In its response, SSA did express concerns about certain assumptions we made in the
report. Specifically, the Agency stated that additional evaluation was needed to show
that matching agreements would result in the reduction of fraud and/or the recovery of
improper payments in SSA programs. SSA also expressed concern regarding privacy
issues involved in pursuing matching agreements with States using biometric
technologies. The Agency asserted that the Privacy Act and its modifications covering
computer matching did not anticipate using biometrics for identification purposes.
Therefore, SSA stated that it must exercise caution to ensure that biometrical
identification is accurate, voluntary and totally noncoercive.

SSA was also concerned that by only matching with States that employ biometrics, SSA
would be subjecting a class of applicants to identification requirements above those
generally required. Finally, SSA stated that it must also remain cautious about relying
on “matches”with State records that contain identifying information not consistent with
SSA’s data. SSA stated that doing so without the appropriate checks and balances
could lead to inappropriate questioning or even suspensions for individuals whose SSA
benefit eligibility is correct. The full text of SSA’s comments is included as Appendix D.

                                            12

OIG RESPONSE

We are encouraged by SSA’s decision to pursue a pilot matching agreement with the
State of New York. Additionally, we agree with SSA’s proposed plan to expand the
pilot to other States only if the matching agreement with New York proves beneficial.

We acknowledge SSA’s concerns regarding the assumptions made in our report. We
also recognize that biometrics and matching agreements represent a new frontier for
the Agency. As such, we understand SSA’s desire to proceed in this arena with
thoughtful consideration. We believe that as SSA accumulates data and gains
experience during its pilot review, the Agency should be in a good position to assess
the actual costs versus benefits of matching as well as related privacy issues.




                                          13

APPENDICES

                                                                           APPENDIX A



             USE OF BIOMETRICS IN STATE

                WELFARE PROGRAMS



States with Active Biometric Programs


Arizona
The Arizona Department of Economic Security began statewide finger-imaging of
Temporary Assistance for Needy Families (TANF), general assistance and Food Stamp
applicants in January 1998. A legislative study estimated that the program could save
the State $30 million over 5 years.

California
California has implemented finger-imaging in seven counties. On June 1, 1998, the
State released a Request for Proposal (RFP) to expand its program, anticipating an
eventual enrollment of 6 million people statewide by March 2000, to support TANF,
general assistance and Food Stamp programs. The State estimates that using
Los Angeles County’s Automated Fingerprint Image Reporting and Match System
imaging, savings of over $86 million have been realized in the first 2 years of operation,
August 1994 to September 1996.

Connecticut
The State of Connecticut’s Department of Social Services (DSS) began statewide
finger-imaging in January 1996 for its Aid to Families with Dependent Children (AFDC),
which was changed to TANF by 1996 legislation, and general assistance programs. As
of December 1998, Connecticut had enrolled 170,000 individuals. In a March 1998
report to the General Assembly, DSS stated that, through digital imaging, it had
identified 32 cases of attempted dual enrollment, 12 resulting in prosecution, closure or
other administrative action, and 20 were under investigation. Including closed cases
and attempted dual enrollments, DSS estimated savings of $9 million and $6 million in
the first 2 years of operation, respectively.

Connecticut is also attempting to identify individuals simultaneously collecting benefits
in two or more States by using biometric technology to cross-match finger-imaged files
with similar data in other States. The results from the match with New Jersey were



                                           A-1

promising. The fraud divisions of both States are investigating 53 potential fraud cases
identified from the match. Plans for a similar match with the State of New York are
underway.

Illinois
Between 1990 and 1993, Illinois uncovered 36 cases of multiple case fraud costing
taxpayers over $326,000 in illegally obtained welfare benefits. These cases were
found by chance rather than systematically. Based on congressional estimates of the
national cost of fraudulent welfare identification schemes, Illinois estimated State
losses could exceed $1 billion. While the Department of Public Aid (DPA) felt its fraud
prevention and detection techniques were proactive, DPA sought to complement and
strengthen its existing efforts with biometric identification techniques.

In July 1994, the Illinois General Assembly passed legislation requiring DPA to test the
cost-effectiveness of biometric identification systems as a fraud prevention measure.
The legislation mandated the testing of two types of biometric technology, finger-
imaging and retinal scanning, the latter of which was terminated.

In February 1996, DPA implemented an electronic fingerprint-imaging system known as
the Automatic Identification and Match System (AIMS) as part of a 12-month
demonstration project to test fingerprint imaging in three metropolitan Chicago public
aid offices for the TANF program. In June 1997, legislation extended the AIMS project
to 36 months.

In July 1997, responsibility for biometric identification systems was transferred from
DPA to the Department of Human Services (DHS). DHS issued an Evaluation Report
in December 1997 that described instances of multiple enrollments. For example, as of
September 1997, 34 potential multiple enrollments were referred for investigation with
1 case being found to be actual multiple enrollment. This case resulted in $402 in
identified overpayments resulting from administrative error. DHS recommended
termination of the retinal scanning project and continuation of the AIMS project while
more precise technical and cost data were developed on a statewide basis.

As of December 1998, Illinois had enrolled 10,377 individuals under its TANF program.
The Secretary for DHS has announced that finger-imaging will be a requirement for all
TANF and Food Stamp adults, with statewide implementation expected to begin in
mid-2000.

Massachusetts
Massachusetts has implemented a pilot study using finger andfacial-imaging. The
Massachusetts Department of Transitional Assistance (MDTA) began enrollments
under the Image Identification System (IIS) in February 1996. As of December 1998,
about 280,000 individuals have been enrolled under the TANF, general assistance,
and Food Stamp programs. No reports have been issued on savings, but MDTA feels
that the real value of IIS is in its deterrent effect.


                                          A-2

New York
New York’s DSS implemented its Automated Finger-Imaging System (AFIS) in 1995 as
part of a multiple county pilot. The pilot covered applicants and recipients under its
AFDC (now TANF) and general welfare (Home Relief) programs.

As of December 1998, New York’s DSS had enrolled about 1 million individuals in its
finger-imaging data base. DSS estimated savings of $396 million over the first 2 years
of the program; resulting from 1,437 case denials for refusal at intake, some
45,030 case closings, and 379 fraud investigations for dual enrollees.

New York is also planning to perform interstate matching of finger-imaged data to
identify individuals simultaneously collecting welfare benefits in two or more States.
New York’s first State matches will be with Connecticut and New Jersey.

New Jersey
The New Jersey DHS began a pilot study in July 1995 using finger-imaging in the
northern portion of the State, which included about half its general assistance
population. As of December 1998, DHS had enrolled about 70,000 individuals in its
finger-imaging data base. DHS is working on the RFP for the general assistance
program on a statewide basis. New Jersey has also performed a cross match with
Connecticut and expects to perform a cross match with New York.

Texas
The Texas DHS began a biometric pilot project covering two of its counties in
October 1996. Using the Lone Star Image System (LSIS), individuals in the AFDC
(now TANF) and Food Stamp programs were required to be finger-imaged.

Texas DHS implemented LSIS statewide, and as of October 1999, had enrolled
772,307 individuals. Cost avoidances were estimated at $6.4 million per year.
Additionally, 19 cases were referred to fraud investigators of which 4 resulted in
charges being filed, 3 resulted in administrative penalties, 9 were still under review,
and 3 were found to be valid claims.




                                           A-3

States with Pending Biometric Programs


Florida
The Florida Department of Children and Families has initiated a pilot study using
finger-imaging.

North Carolina
The North Carolina Legislature has mandated statewide implementation of a biometric
imaging system to include TANF, Food Stamps and Medicaid recipients.

Pennsylvania
The Pennsylvania Department of Public Welfare plans to fingerprint 830,000 welfare
clients. As a result, the State estimates that it will realize budgetary savings or cost
avoidance of $290 million.




                                           A-4

                                       APPENDIX B



SSA COVERED MATCHES WITH STATES



    State and            To identify incarcerated
  Local Prisoner      individuals receiving title II or
      Rolls                  title XVI benefits.




       State         To identify unreported marriages
  Bureaus of Vital              and divorces for
     Statistics        title II and XVI beneficiaries.




  Beneficiary and       To provide State welfare
  Earnings Data      agencies with title II benefit and
    Exchange             earnings information.




    State Data        To provide States with title XVI
    Exchange               benefit information.




      State
                     To provide States with title II and
   Wire-to-Wire
                       title XVI benefit information.
  Query Process
                                                                                     APPENDIX C



                        SAMPLE APPRAISALS



               TOTAL BENEFITS PAID FOR NEW YORK CASES
                       THROUGH JANUARY 1998

Variables Appraisal


Total Social Security Payments in Sample Cases                                   $ 1,795,536.00

Total Sample Size                                                                              500

Average Total Dollar Payment                                                     $       3,591.07
($1,795,536.00/500)

Total Population                                                                           12,615

Total Value of Projected Social Security Payments to the

Population of New York Applicants                                                $45,301,373.001




CONFIDENCE LEVEL: We are 90-percent confident that the actual value of all Social Security
payments made through January 1998 to the population of terminated New York Aid to Families with
Dependent Children applicants is between $32,430,217 and $58,172,529.




1
 This total represents an estimated $13,501,708 in title II payments and $31,799,665 in title XVI
payments. We are 90-percent confident that the actual value of title II payments made through
January 1998, to the population of terminated New York Aid to Families with Dependent Children
applicants is between $6,778.278 and $20,225,139. We are also 90-percent confident that the actual
value of title XVI payments to this same population is between $21,258,066 and $42,341,264.


                                                C-1

Attributes Appraisal


Total Population                                                                                 12,615

Total Sample Size                                                                                   500

Number of Cases with Social Security Benefit Payments                                                64

Projection of the Number of Cases in Total Population of

Terminated New York Applicants with Social Security Benefit Payments                              1,6152




CONFIDENCE LEVEL: We are 90-percent confident that the actual number of cases in the total
population of terminated New York AFDC applicants who received Social Security benefit payments is
between 1,318 and 1,952.




2
  This total represents an estimated 858 individuals who received title II payments and 883 individuals
who received title XVI payments. The total of these figures exceeds 1,615 because 5 individuals within
our sample received benefits under both programs. We are 90-percent confident that the actual number
of cases that received title II benefits is between 640 and 1,124 and title XVI benefits is between 662 and
1,152.


                                                   C-2

ESTIMATE OF FUTURE SSA BENEFITS FOR NEW YORK CASES

THAT WILL BE PAID BETWEEN

FEBRUARY 1998 AND FEBRUARY 20013


Variables Appraisal


Total Future Social Security Benefits in Sample Cases                                   $ 648,936.00

Total Sample Size                                                                                    500

Average Total Dollar Payment                                                           $      1,297.87
($648,936.00/500)

Total Population                                                                                12,615

Total Value of Projected Future Social Security Benefits to the

Population of Terminated New York Welfare Applicants                                  $16,372,655.004





3
  Future projections assume that factors affecting payment levels will remain constant for 3 years after
January 1998 (e.g., zero inflation, all terminated beneficiaries will collect payments throughout the entire
3-year period).
4
   This total represents an estimated $4,514,151 in title II payments and $11,858,504 in title XVI
payments. We are 90-percent confident that the actual value of future title II benefits that will be paid to
the population of terminated New Your AFDC applicants over the period February 1998 to February 2001
is between $1,741.338 and $7,286,965. We are also 90-percent confident that the actual value of title
XVI payments that will be paid to this population is between $8,207,856 and $15,509,152.




                                                    C-3

CONFIDENCE LEVEL: We are 90-percent confident that the actual value of future SSA benefits that
will be paid to the population of terminated New York AFDC applicants between February 1998 to
February 2001 is between $11,815,594 and $20,929,716.




                                               C-4

                   APPENDIX D


AGENCY COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
"THE SOCIAL SECURITY ADMINISTRATION IS PURSUING MATCHING AGREEMENTS
WITH NEW YORK AND OTHER STATES USING BIOMETRIC TECHNOLOGIES" (A-08-
98-41007)"

Recommendation

Pursue a matching agreement with New York so that the Agency can
use the results of the State's biometric technologies to reduce
and/or recover any improper benefit payments.

Comment

We will pursue a pilot matching agreement with New York.

Recommendation

Initiate pilot reviews to assess the cost efficiency of matching
data with other States that have employed biometrics in their
Social Service programs.

Comment

Should the New York pilot prove beneficial, expansion to other
States will be considered on a case-by-case basis.




                                D-3

                                                                        APPENDIX E



          MAJOR REPORT CONTRIBUTORS

Office of the Inspector General

Gary Kramer, Director, Program Audits


Kim Byrd, Deputy Director, Enumeration Issue Area


Charles Lober, Senior Auditor



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-9558. Refer to Common Identification Number
A-08-98-41007.
                        APPENDIX F



SSA ORGANIZATIONAL CHART

